-i'll

IN THE

SUPREME COURT OF THE UNITED STATES

In re:
Atul C. Shah
Petitioner
-v-

No: 14-830

FILED
OCT 0 9 2020

Motors Liquidation Company GUC TRUST
and
Modern Educational System

OFFICE OF THE CLERK
SUPREME COURT, U S.

Respondents

On Petition for an Extraordinary Writ to the
Supreme Court of the United States

Petition for an Extraordinary Writ
with
Petition for a Writ of Mandamus
Atul C. Shah
2884 Manorwood Drive
Troy, Michigan, 48085-1145
Home Tel: (248) 879-0795
atul99krishna@vahoo.com

RECEIVED"
NOV 16 2020
SeliEc8g^g<

QUESTIONS PRESENTED FOR A REVIEW
Brief Introductory Statement
I sincerely and humbly consider that the Religion.
Nationality. Color and Age Factors greatly
influenced the unfair Dismissal of me (Dr. Atul C. Shah,
MD) by the GM Senior Group Medical Director Dr.
Stanley Miller, DO on June 11, 2008.1 humbly believe
that the above-mentioned factors were poorly and
inadequately investigated by EEOC and Three Lower
Federal Courts for this Historic and Unprecedented
Civil Case. The above-mentioned four factors were the
primary reason and foundation for filing this Civil Case.
Herewith, I am presenting following 20 questions for a
review by the honorable Supreme Court of the United
States.
In this small size booklet, the questions appear
longer but they are shorter with only necessary detail.
This is a simple prayer.

L The primary purpose of the Petition for an Extraordinary
Writ is the exceptional circumstances warrant the
exercise of the Supreme Court’s discretionary power,
and that adequate relief has not been obtained in any
other form and from the EEOC, lower state or federal
courts. This petition is in the aid of the Supreme Court’s
appellate jurisdiction. This is the primary purpose and
an important question with this petition.
2. Description of Caption according to the Supreme Court
Rule 20.2. “In re [Atul C. Shah as Name of Petitioner]”is
a Petitioner. The “Motors Liquidation Company GUC
Trust and Modern Educational System” is the
Respondents in the Cover Letter. So, the Petitioner Atul
C. Shah, MD is a Personal feature of the Absolute
Truth. The Motor Liquidation Company GUC and the
Modern Educational System both are the Impersonal
Feature of the Absolute Truth used in the Petition for

ii

an Extraordinary Writ with this petition. Also, there is a
list of the distinguished Recipients that are persons
representing the Personal Feature and the Entities are
the Impersonal Feature with this petition. I am
following the Supreme Court Rule 20.2 for the
application of the Caption per the Vedic Wisdom of India
for the Higher Dimensions and a question with this
petition.
3. Whether the violation of First Amendment for practice of
my Religion occurred as described in this civil case. The
Prim a Facie evidences, written and spoken, presented
were under-investigated, distorted and put under the
rug mentality by the EEOC and the federal court judges
at the United Bankruptcy Court, the United District
Court and the United States Court of Appeals for the
Second Circuit. I expressed my personal opinion that
the Vedic Literature of India is far superior and superscientific in nature than the Conventional Modern

iii

Science including Bio-medical Science. The federal
judges and Circuit judges unable to tolerate my personal
opinion of the Superiority of the Vedic Literature and
they dismissed my legal cases with the Concealed
Intention violating my First Amendment right.
4. Whether EEOC was unable to conduct thorough
investigation for Discrimination based upon my
Religion. Nationality. Color and Age due to Lack of
Man-Power rather than having No Merits with my Civil
Case as explicitly described in my 11 Page Complaint
Letter to EEOC dated December 8, 2008. EEOC did not
check the box “No Merit” with their conclusive
determination.
5.

Whether

the

United

States

Bankruptcy

Court

erroneously concluded that EEOC dismissed my case with
NO MERIT. The bankruptcy court did not pay any
attention to the 11 Page Complaint Letter submitted to
EEOC. Also, EEOC Investigator did not interview any of

iv

the Witnesses,

scrutinize the Documents

and Facts

submitted with 11 Page Complaint Letter.
6. Whether the US Bankruptcy Court erred in not
conducting the Evidentiary Hearing as suggested by
the Honorable Judge Robert Gerber himself that was
documented in the Bankruptcy Court Transcript dated
May 15, 2012. The Honorable Judge Gerber wasplanning to conduct Evidentiary Hearing for testing
witnesses as requested in my 11 Page EEOC Complaint
Letter but Judge Gerber just forgot to conduct the
Evidentiary Hearing.
7. Whether the US Bankruptcy court presided by the
Honorable Judge Robert E. Gerber erred in ignoring
the report of the dozens of US Congressmen in GM
Bailout Debacle. My proof of claim was unfairly
expunged by Judge Gerber violating the Rules of
Bankruptcy and he determined the outcome ahead of
time who will win and who will lose in that court.

Honorable Judge Gerber just decided ahead that Dr.
Shah would be the LOSER with this Bankruptcy Case
without proper investigation.
8. Whether the US Bankruptcy court erred in ignoring
the reports by dozens of the US Congressmen that the
Honorable Judge Gerber was RUSHING to the
judgments for many claims including my claim with the
Bankruptcy court procedure. Whether Judge Gerber
Violated and did not follow the Bankruptcy Procedures,
Rules and Regulations rendering unfair judgments with
my civil case and many other claims.
9. Whether the Bankruptcy Judge Robert E. Gerber erred
and unable to digest my personal observation and
opinion in Response Brief dated May 4, 2012 that Vedic
Literature of India is far Superior and Super-scientific
than the Conventional Modern Science including Bio­
medical Science, Psychiatry and Psychology dismissing
my case in anger on May 15, 2012 trial.

vi

10. Whether the District Court Judge J. Paul Oetken erred
and unable to digest my personal observation and
opinion about the Modern Man-made Constitutional
Laws and Applicable Laws are Defective. Fallible and
T.limited as documented in my Reply and Response Legal
Briefs to the United States District Court during 2013
trial.
11. Whether the Panel of Three Judges John M. Walker,
Rosemary S. Pooler and Richard C. Wesley at the
United States Court of Appeals for Second Circuit erred
and unable to digest my personal observation.
challenges and humble prayer for the Higher
Dimensions with the Modern Man-made
Constitutional Laws; Modern Science including Bio­
medical Science, Psychiatry and Psychology as well as
with the Modern Internet and Computer Science per the
Vedic Wisdom of India.

vii

12. Whether the District Court Judge Oetken and Panel of
Three Judges from Second Circuit Court just sided with
the erroneous opinion and defective judgment of the
Bankruptcy Judge Gerber for this historic and
unprecedented Civil Case rendering unjust and unfair
Judgment during 2013 and 2014 trials.
13. Whether that Five Federal Judges Robert E. Gerber, J.
Paul Oetken, John M. Walker, Rosemary S. Pooler &
Richard C. Wesley at Three Federal Courts have had
“Concealed Intention” to Abuse the Administrative
Power allotted to them rendering the Barrage or
Cascade of the Unfair Judgments for my civil case with
violation of the First Constitutional Amendment based
upon my Religion as well as mv Nationality, Color and
Age from 2012 to 2014 time frame and beyond.
14. Whether the Supreme Court of the United States at
Washington DC may encourage the Presidents of AMA
and APA; Commissioners of SSA and DDS; Directors of

viii

the Drugs Administration Agency; Research Directors of
Universities; and CEOs of the wealthy Corporations of
GM, Ford and Chrysler as well as Chairmen of wealthy
Internet and Computer Companies such as Bill Gates &
Satva Nadella from Microsoft and Michael Dell from the
Dell Company and other Modern Innovators for the
Higher Dimensions Topic and Transcendental
Debate. This great point has been repetitively
mentioned in my Legal Briefs and Articles to the three
federal courts.
15.1 will be happy to present the article titled as
“Description of the Fundamental Principles of the
Internet and Computer Science Mystery” to the
Honorable Supreme Court of the United States anytime.
I sincerely pray that the Supreme Court kindly be
agreeable for the revelation of this great topic for the
betterment of the modern mankind.
16. Description of the Impersonal and Personal Truth:

ix

The entities such as the Supreme Court of the United
States, Federal Courts; and State Courts, prestigious
Universities and Research Facilities, Medical
Associations, Internet Companies as well as our small
planet are the Impersonal Feature of the Absolute
Truth. Chief Justice, Associate Justices, Federal Court
Judges; Presidents or Prime Ministers of nations,
President of Medical Associations and CEOs of the
wealthy Internet companies are the examples of the
Personal feature of the Absolute Truth as blissfully
described in the Vedic Literature: the Supreme Science
of Sanatana Dharma from India.
17. The primary reason to describing the “Impersonal and
Personal” features of the Absolute Truth is that I am
forwarding copy of my Petition for an Extraordinary
Writ to the List of the distinguished recipients who are
person such as the Chief Justice, Associate Justices,
Federal Judges, Presidents of Medical Organizations

and CEOs of the Internet companies; to the Modern
Scholars and Vedic Scholars and friends. Also, the copy
of this extraordinary petition will be forwarded to the
List of the Parties. Courts and Organizations that are
representing the Impersonal feature of the Absolute
Truth. This is the Vedic Wisdom of India. This is the
primary reason for this petition is captioned as “In re
Atul C. Shah as the Petitioner and “Motors
Liquidation Company GUC Trust and Modern
Educational System” as the Respondent representing
two features - the Impersonal feature and Personal
feature of the Absolute Truth. I am just following the
Supreme Court Rule 20.2 per my humble capacity and
understanding.
18.1 pray and request to the Honorable Supreme Court of
the United States at Washington DC to be kind and
sympathetic with the simple and honest observation of
this humble self Dr. Atul C. Shah, MD that the

xi

Complete Transformation and Higher Dimensions with
the Modern Law System, Modern science and Modern
Internet and Computer Science Mystery per the Vedic
Wisdom is Vital and the Panacea for the Modern
Mankind right now. This great point is the primary and
cherished goal of my legal battle with the Modern Law
System and my un-ending fight with the Modern
Educational System past 30 plus years in our greatest
democratic country of our small globe.
19.1 pray to the Honorable Supreme Court of the United
States to agree that this historic and unprecedented
Civil Case has a National and International
Significance for betterment of the Modern Mankind for
the Global Prosperity, Global Peace and Global
Enlightenments with end of the Atheism. Immorality
and Terrorism in our small globe at present and in the
future.

xii

20.1 humbly pray to the Honorable Supreme Court of the
United States at Washington DC may consider that this
is a humble and simple prayer from the bottom of my
heart from a humble and law-abiding citizen like me
representing the General Public of the modern mankind.

I have a great faith and respect for the honorable
Supreme Court of the United States and the Modern Law
System. I am a simple, humble and Law-Abiding citizen of
the USA and India - two greatest democratic countries of
this small globe.

xiii

PARTIES TO THE PROCEEDINGS
[X] All parties appear in the caption of the case on the cover
page.
[] All parties do not appear in the caption of the case on the
cover page. A list of all parties to the proceeding in the
court whose judgment is the subject of this petition.

xiv

TABLE OF CONTENTS

1. Questions Presented

l-Xlll

2. Parties to the Proceedings

xiv

3. Table of Contents

xv

4. Opinions below

XV1-XV11

5. Statues, Rules and Table of Authorities

xm-xix

6. Citations of Official and Unofficial Opinions.. ..1- 5
6

7. Jurisdictions and Treaties
8. Constitutional and Statutory Provisions

7 -11

9. Statement of the Case

12-13

10. Reasons for Granting the Petition for an
Extraordinary Writ

14 -18

11. Text of the Petition for an Extraordinary
Writ

19-83

12. List of Appendices

App. 1 - 623

13. Facts and Discussion

App. 624 - 652

14. Conclusion

653

15. List of the Recipients and Dismissals

656 - 681

xv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR AN EXTRAORDINARY WRIT
Petitioner

respectfully

prays

that

Petition

for

an

Extraordinary Writ issue to review the judgments below.

OPINIONS BELOW
[X] The opinion of the Supreme Court of the United States
of America at Appendix A
[X] The opinion of the United States Court of Appeals for
the Second Circuit at Appendix B, C, D, E and F
[X] The opinion of the United States District Court at
Appendix G
[X] The opinion of the United States Bankruptcy Court at
Appendix H
[X] The opinion of Administrative law Judge Peter L.
Plummer at Appendix I
[X] The opinion of Detroit EEOC at Appendix J
[X] The opinion of Atul C. Shah, MD in the 11-page
Complaint Letter to Detroit EEOC at Appendix K

xvi

[X] The opinion of Atul C. Shah, MD in article titled as
“Together we are Stronger: Integration of Spiritual Science
and Modern Science” at Appendix L

[X] The opinion of Atul C. Shah, MD in article titled as
“Higher Dimensions” at Appendix M

[X] The opinion of Atul C. Shah, MD in article titled as
“Letter to Satya Nadella CEO and Chairman of Microsoft
Company at Appendix N

xvii

STATUTES
I have humbly and lawfully obtained the List of following
Statues from the Opinion of Judge Oetken (Legal Standard)
on pages 4 — 7 Dated June 03, 2013. Please also consult the
Opinion of Hon Judge Oetken with attached Appendix
Section.
L 11 U.S.C. {502 (a)
2. 28 U.S.C. {158(a)
3. 42 U.S.C.A. {2002e-2

RULES
I have humbly and lawfully obtained the List of following
Rules from the Opinion of Judge Oetken in Legal Standard
Section on pages 4-7 Dated June 03, 2013. Please also
consult the Opinion of Hon Judge Oetken with attached
Appendix Section.
1. Fed. R. Bankr. P. 3001
2. Fed. R. Bankr. P. 80

xviii

TABLE OF AUTHORITIES CITED
I have humbly and lawfully obtained the List of following
Authorities from the Opinion of Judge Oetken in Legal
Standard Section pages 4 — 7 Dated June 03, 2013

L Butts v. City of New York Dept, of Hous. Pres. & Dev.,
990 F.2d 1397, 1401 (2d Cir.1993)
2. Cohen v. de la Cruz, 523 U.S. 213, 218(1998)
5. Derivin v. Kerik, 335 F. 3d 195, 200 (2d Cir. 2003)
4. In re Circle J. Dairy, Inc., 112 B.R. 297, 300 (W.D. Ark.
1989)
5. In re Hyman, 502 F.3d 61,65 (2d Cir. 2007)
6. In re King, 2010 WL 4290257 (Bakrtcy. N.D.NY. Oct. 20)
7. In re Marino, 90 B.R. 25, 28 (Bankr. D. Conn. 1998)
8. Primavera Familienstiftung v. Askin, 130 F. Supp. 2d
450, 540 (S.D.NY. 2001)

xix

Citations of the Official Opinions and Orders
1. Opinion of the Supreme Court of the United States
dated April 9. 2015.
2. Opinion of Chief Judge Robert A. Katzmann of the
United States Court of Appeals for the Second
Circuit for Request Letter dated July 10, 2014.
3. Opinion by the Three Circuit judges John M. Waller.
Jr: Rosemary S. Pooler and Richard C. Wesley to the
Petition Letter for the Rehearing En Banc bv 13
Honorable Judges addressed to the United States
Court of Appeals for the Second Circuit dated May
29. 2014.
4. Opinion or Judgment of the Honorable Judge J. Paul
Oetken of the United States District Court dated
June 3. 2013.
5. Opinion or Judgment of the Honorable Judge Robert
E. Gerber of the United States Bankruptcy Court
dated September 27. 2012.

1

6. Dismissal of the Administrative Complaint case
without prejudice by the Administrative Judge Peter
L. Plummer dated 3/24/2017.
7. Opinion of the EEOC Determination dated July 7.
2009.
8. Opinion of Dr. Atul C. Shah, MD in 11 Pages
Complaint Letter to Detroit EEOC dated June 2008.
9. Personal Letter to Ronald M. Davis, MD AMA
President, Chicago, Illinois dated January 2008.
10. Higher Dimension article written by Atul C. Shah,
MD with Description of essential need of Higher
Dimension and Complete Transformation of Modern
Law System, Modern Science and Modern Internet
and Computer System per the Vedic Wisdom dated
November 4, 2012.
11. Personal Letter to Satya Nadella, CEO and
Chairman of Microsoft Company dated August 21,
2014.

2

Citations of the Unofficial Opinions
1. Copy of article “Vedic Culture: an Ideal Culture —
Higher Dimensions with the Modern Science” article
written by me (Atul C. Shah, MD) with description of
essential need of Higher Dimension and Complete
Transformation of Modern Law System, Modern
Science and Modern Internet and Computer System
per the Vedic Wisdom dated March 31, 2018.
2. Copy of “Prevention of Narcotic Epidemics and
Research” article forwarded to Obama-Biden
Administration and the Research Director Position
during October 2015.
3. Copy of the “Subject Statement and Dispute
Information” letter to National Physician Data Bank
(NPDB) on 6/30/2017. My dispute letter indicates
that surrendering of DEA License is not a violation
of the Public Health Codes and the $ 500.00 was a
reduced administrative fee and not the fine or

3

penalty as well as the Non-existence of mv
Administrative case to be reviewed and for a verdict
by the Supreme Court of the United States.
4. Copy of the Letter of the Pre-hearing Tele-conference
with the honorable Administrative Judge Peter L.
Plummer and Assistant Attorney General Andrew J.
Hudson dated 3/14/2017. Copy of Dismissal of case
without prejudice on 3/24/2017 and copy of a letter
requesting to dismiss case with prejudice dated
4/4/2017.
5. Copy of my article “Blissful Challenge” requesting the
Prime Minister Narendra Modi and President
Donald Trump for encouraging and challenging the
Internet and Computer Science geniuses and wizards
for revelation of the “Description of the Fundamental
Principles of Internet and Computer Science
Mystery” dated April 22, 2017.

4

6. Copy of the EEOC Complaint letter was filed on
August 23, 1990 describing dismissing me (Atul C.
Shah, MD) from the Psychiatric Residency Training
Program in the Wayne State University in Detroit in
Michigan in July 10.1990 based upon my Hindu
Religion and Hindu Religious Belief.
7. This “Letter of Interest” was written in 1993 is
describing my Hindu Religion and Hindu Religious
Beliefs that was considered as the magical thinking
by the Psychiatric Residency Program Directors. I
was dismissed TWICE from the same Psychiatric
Residency Training Program in July 1990 and
October 1994 for expressing my opinion that
Psychiatry and Psychology are disorganized and
fallible and in need of the Higher Dimensions per the
Vedic Literature of India. These are the examples of
a violation of my First Constitutional Amendment of
the freedom of Religion.

5

Statement of Basis for Jurisdiction
A timely Petition of Rehearing was denied by the United
States Court of Appeals for the Second circuit on July 11,
2014, and a copy of the denying order rehearing appears at
Appendix A.

The jurisdiction of this Court is invoked under 28 U.S.C.
1254(1)

Treaties
Not Applicable

6

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
A. During the General Motors Bankruptcy when the court
expunged my claim, I was not provided or offered Due
Process as required by the 1st, 5th and 14th Amendments
to the United States Constitution.
B. During the General Motors Bankruptcy, when the Court
expunged my claim without any evidentiary hearing, I
was not provided or offered the same or equal treatment
as others in violation of the Equal Protection Clause of
the 1st and 14th Amendment to the United States
Constitution.
C. The humble request by this humble self for the Petition
for Rehearing En Banc was denied by the Honorable
Chief Judge Robert A. Katzmann of the United States
Court of Appeals for the Second Circuit at New York
twice in July 2014. I humbly consider this fact as the
unfair and unjust attitude by the Honorable Court. I

7

humbly consider this action as the Administrative
Terrorism by the Honorable Courts.
D. I submitted an article titled as “Classification. Causes
and Prevention of Terrorism within the modern
mankind per the Vedic wisdom” in my Reply Brief
and Appendix dated October 7, 2013 to the United
States Court of Appeal for Second Circuit. The
Honorable Chief Judge Robert A. Katzmann is a learned
Law Practitioner and expert in the Political Science
per the court profile. He never responded and never
provided the article with the description of
“Classification. Causes and Prevention of Terrorism
within the Modern Mankind”. This is a violation of the
court procedure.
E. Honorable Chief Judge Robert A. Katzmann and Panel
of Judges John M. Walker, Jr; Rosemary S. Pooler and
Richard C. Wesley as well as other Modern Intellectuals
including President Obama may submit to the

8

Supreme Court regarding their version of the
“Classification, Causes and Prevention of
Terrorism within the modern mankind” for the
Comparative Study. Prevention of Terrorism is the vital
important and panacea for the Modern Mankind all over
this small globe right now.
F. I will be very happy to submit this article
“Classification. Causes and Prevention of
Terrorism within the modern mankind per the
Vedic Wisdom” to the Supreme Court of the United
States anytime if approved and authorized by the court.
G. Also. I will be happy to present another fantastic article
titled as “Description of the Fundamental
Principles of the Modern Internet and Computer
Science Mystery” to the Supreme Court of the United
States anytime as mentioned in my Reply Brief and
Appendix dated October 7, 2013 to the United States
Court of Appeal for Second Circuit.

9

H. In reciprocation as humbly requested with this petition
to the Honorable Supreme Court of the United States
may order Chairman and CEO Mr. Bill Gates and Satva
Nadella of wealthy and prestigious Microsoft Company
and other Modern Innovators to submit their version of
this great topic for the comparative study and
betterment of the Modern Mankind.
L Fifth Amendment — Right to stay Silent:
The Fifth Amendment provides a right to stay silent.
However, when the federal judges, Presidents of the
Medical Organizations (AMA, APA, MSMS and WCMS),
Modern Scholars and CEOs of the fabulously wealthy
Internet companies remain intentionally silent and
abuse the 5th Amendment that indicating their lack of
knowledge and ignorance. Better to say “I do not
know” rather hiding the ignorance. This is the reality
and the truth.

10

J. I humbly consider above-mentioned points as the
Constitutional and Statutory Provisions involved with
this historic and unprecedented civil case.

11

STATEMENT OF THE CASE
I am humbly and lawfully appealing to the
Supreme Court of the United States about the Unfair and
Unjust Opinion and Perception of the Hon Judge
Gerber at the United States Bankruptcy Court and the Hon
Judge Oetken at the United States District Court as well as
Panel of Three Judges John M. Walker, Jr; Rosemary S.
Pooler and Richard C. Wesley at the United States Court of
Appeals for Second Circuit in New York.
I strongly but humbly consider the Expungement
and Dismissal of my Historic and Unprecedented
Civil case is the best example of the Suppression of the
Truth and Concealed Abuse of the Power allotted to the
Five Federal Courts Judges at three federal courts in New
York, unfortunately.
I am humbly and lawfully requesting to the Supreme
Court of the United States to lawfully investigate the
discrimination based upon my Religion, Nationality,
12

Color and Age that occurred during my employment with
General Motors and beyond fay the EEOC, Medical
Organizations, DEA and by the fabulously wealth Internet
Companies as well as by the court system as mentioned in
my legal briefs and superb articles.

13

REASONS FOR GRANTING THE PETITION
Petition for an Extraordinary Writ

I humbly understand that the primary purpose of the
Supreme Court is to decide the cases presenting issues of
extraordinary significance rather correcting the errors at
the Lower Courts. This Petition for an Extraordinary Writ
should be granted because of the extraordinary significance
for the general public that affect all Americans involved in
federal court actions. The issues presented with my civil
case are affecting millions of Americans especially those
people who represent themselves as a Pro Se Litigant just
like me.
The primary purpose of the Petition for an
Extraordinary Writ is the exceptional circumstances
warrant the exercise of the Supreme Court’s discretionary
power, and that adequate relief has not been obtained in
any other form and from the EEOC, lower state or federal

14

courts. This petition is in the aid of the Supreme Court’s
appellate jurisdiction. This is the primary purpose of this
petition.
The Bankruptcy court expunged my claim with
assumption that my case was found to be meritless by the
EEOC. The bankruptcy court did not pay any attention to
the 11-page complaint letter that I submitted to the EEOC
investigator. The EEOC investigator did not interview any
of the witnesses or scrutinize documents and facts that I
submitted to the EEOC. The EEOC investigators were
unable decide whether my case had merit or no merit
secondary to Lack of Manpower.
Another reason for granting my Petition for an
Extraordinary Writ is that the Honorable Bankruptcy
Judge Gerber was planning to conduct an “Evidentiary
Hearing” as stated in Transcript of Bankruptcy court dated
May 15, 2012. Evidentiary Hearing could have provided
and revealed more evidences and facts of Discrimination as

15

mentioned in my 11 Page Complaint Letter to EEOC dated
December 2008.
The dozens of the Unites States Congressmen
concluded in their study of the United States Bankruptcy
Court ruling preside by Hon Judge Gerber. The
Congressmen found out that Honorable Judge Gerber was
just following meekly the order and guidelines of the
Higher Authority of the Obama Administration for
rendering unfair judgments, especially, for the General
Unsecured Creditors (GUC) like me deciding ahead of time
who will be the Winners and Losers. So, Honorable Judge
Gerber violated the bankruptcy court rules and regulations.
This is not my opinion and perception rather than the
opinion and perception of the dozens of the US
Congressmen with their reports and findings.
The most important factor and topic for granting my
Petition for an Extraordinary Writ is the “Complete
Transformation and Higher Dimensions with the Modern

16

Law System, Modern Science and Modern Internet and
Computer System per the Vedic wisdom of India” as
explicitly described in my Appeal. Response and Reply
Briefs as well as several fantastic articles presented to the
Five Honorable Federal Judges (Robert E. Gerber, J. Paul
Oetken, John M. Walker, Jr; Rosemary S. Pooler and
Richard C. Wesley) at three Federal Courts as well as to
the Supreme Court of the United States with this historic
and unprecedented Civil Case.
I have had humbly mentioned that Higher
Dimensions with the Fundamental principles of Modern
Law System, Modern Science and Modern Internet and
Computer System can explicitly and super-scientifically
revealed with help of the Vedic Wisdom of Vedic Literature:
the Supreme Science of India right now.
This topic of the Higher Dimensions with Complete
Transformation has National and International
Significance as well as Extra-ordinary

17

Implementation for the Global Prosperity. Global Peace
and Global Enlightenments of the entire modern mankind
of this small globe.
The above-mentioned criteria and topics are the
motivating factor and the cherished goal of this humble self
(Atul C. Shah, MD) with a sincere and humble request to
the Supreme Court of the United States for granting the
Petition for an Extraordinary without any reservation
and hesitation.

18

PETITION FOR AN EXTRAORDINARY WRIT
A. Introduction:
I greatly appreciate and sincerely thank from the
bottom of my heart to Five Federal Court Judges Robert E.
Gerber, J. Paul Oetken; John M. Walker, Jr, Rosemary S.
Pooler and Richard C. Wesley at three Federal Courts
namely the United States Bankruptcy Court, the United
States District Court and the United States Court of
Appeals for Second Circuit at New York, New York for
giving me a great opportunity to file my historic and
unprecedented Civil Case to the Supreme Court of the
United States.
Now, I am filing the Petition for an
Extraordinary Writ to the Supreme Court of the United
States. This petition is according to the format of the
Petition for Writ of Certiorari Case number 14-830 as
recommended by the Rules of the Supreme Court.
19

The United States of America is one of the greatest
Democratic Country of this small planet with the Freedom
of Speech, Freedom of Expression and Freedom of the
Religion for every citizen of this country past more than two
centuries.
This historic and unprecedented Civil Case begin on
June 11, 2008 when I was dismissed as the Plant Physician
working with General Motors Corporation for 11 years by
GM Senior Group Medical Director Dr. Stanly Miller, DO
based upon my Religion, Nationality, Color and Age
discrimination.
I sincerely thank the Pro Se Clerks for their patience
and support for providing me the basic technical
information of the Court Procedures as the Pro Se Litigant
with three Federal Courts in New York from 2012 to 2014
as well as to the Clerks of the Supreme Court of the United
States. Also, I sincerely and bottom of my heart thank to
the Modern Intellectuals, Vedic Scholars, Law Practitioners
20

and friends for reviewing my Legal Briefs and Articles
forwarded to them time to time in USA, India and other
countries by emails from 2008 to present.
Court System encourages the Pro Se Litigants and
anyone to use the Internet to review and collect the
pertinent Legal topics, citations and legal cases for the
submission of Legal Briefs and Legal Arguments to the
Honorable Judges. This is a great gesture by the Court
Systems for the Pro Se Litigants and Plaintiffs
representing him or herself like me.
The primary purpose of the Petition for an
Extraordinary Writ is the exceptional circumstances
warrant the exercise of the Supreme Court’s discretionary
power, and that adequate relief has not been obtained in
any other form; such as from the EEOC, lower state or
federal courts. This petition is in aid of the Supreme Court’s
appellate jurisdiction. This is the nrimarv purpose of this
petition.
21

Now, I am presenting this Petition for an
Extraordinary Writ in a booklet format written by this
humble self per my capacity as clear, concise and complete
as possible. All legal briefs and articles are written by me
(Atul C. Shah, MD) and forwarded to three lower federal
courts that are easily retrievable through the Electronic
Filing System by the honorable Supreme Court.
I have not taken any help from the State, Federal or
Government employed Law Practitioners for this Legal
Brief as that practice is prohibited by the Law. In other
words, this Legal Brief is written by Atul C. Shah, MD, Pro
Se Appellant as recommended by the Court System.
I have a great respect and faith with the Supreme
Court of the United States and the Modern Law System for
the fair and equal justice to every citizen irrespective to
his or her Religious, National, Cultural, Geographic,
Education, Occupational as well as Financial and
Linguistic or Racial affiliations.
22

Please kindly take a note that I was presenting the
civil case with my personal health issue. I have had a Major
Six Bypass Open Heart surgery on June 24. 2014 in
Michigan Hospital. I have recovered well and attended the
Cardiac Rehabilitation. Despite this major health issue, I
am trying my best to present my civil case to the Supreme
Court of the United States per my humble capacity.
Presentation of this historic and unprecedented Civil
Case with help of the Petition for an Extraordinary Writ to
the Supreme Court of the United States is the culmination
of my humble attempt for the Global Prosperity. Global
Peace and Global Enlightenments of the Modern Mankind.
This is my cherished goal and a sincere prayer.
This historic and unprecedented Civil Case has the
National and International Significance for the
Betterment of the Modern Mankind.

23

B. Description of the Categories of the Petition for an
Extraordinary Writ:
I am carefully studying the 80-page small booklet
titled as “Rules of the Supreme Court of the United States”
forwarded to me by the Supreme Court Clerk Michael
Duggan during 2014. This small booklet and Online
Internet 2019 copy is describing three categories of the
Petition for an Extraordinary Writ as follow:
I. A petition seeking a writ of prohibition.
II. A petition seeking a writ of mandamus
III. Both writ of prohibition and mandamus combine
IV. A petition seeking a writ of habeas corpus
Please take a note that I am not interested in the
category of petition seeking a writ of habeas corpus that is
reserved for the capital punishment criteria. The definition
of habeas corpus is “Bring Body to the Court or Judge” per
the understanding within the Modern Law System. The
literal definition of habeas corpus or “Bring the Body” is
24

defective and confusing within the Modern Law System for
several centuries. The modern law system is incapable to
define scientifically and accurately the meaning of the
habeas corpus or bring the body past several centuries.

I have mentioned in my “citations of the official
opinions” in a letter to late Dr. Ronald M. Davis, MD
President of the American Medical Association that there
are three types of Body scientifically and authoritatively
describe the per the blissful Vedic Wisdom of India. This
official opinion was presented to the Supreme Court of the
United States during 2014 with description of the three
types of Body or the habeas corpus.
■

Gross Physical Body

■

Astral Body or Subtle Body

■

Spiritual Body or Spirit Soul

I may sincerely request the honorable Supreme Court to
review again this scientific definition of three kind of Body
25

or habeas corpus that should be applied by the courts and
judges within the modern law system. This scientific
information from the blissful Vedic Wisdom of India will
certainly remove the long-standing confusion and defective
nature of the modern law system at present and in the
future Habeas Corpus cases presentations. The honorable
courts and the honorable Judges can summon or subpoena
the Habeas Corpus or Bring the Body that can be the
Gross Anatomical Body, Astral or Subtle Body or the
Spiritual Body of a male, female or transgender culprit(s).
This great concept from the blissful Vedic Wisdom will be a
great stepping stone for the modern law system in USA,
India and all over this small globe without reservation and
hesitation.
Also, the honorable Court or the honorable Judge can
summon or subpoena the culprit(s) who may be alive with
the Gross Anatomical Body, Astral Body and Spiritual
Body. If the culprit(s) is dead, then, the Astral Body and
26

Spiritual Body can be summoned or Subpoenaed with help
of the Yoga, Meditation, Hypnotism and with help of the
Modern Internet and Satellite Technology from the
heavenly, earthly or hellish atmospheres or locations. The
honorable courts and honorable judges can order the
prestigious research institutes for further research studies
of this sublime topic of Habeas Corpus.
This is the best example of the Higher Dimensions
and the Resurrection or Habeas Corpus (Bring the
Body) in the modern law system per the blissful and eternal
Vedic Wisdom of Sanatana Dharma from India.

Also, the Modern Law System is so defective, cruel and
exclusivist that it has denied and excluded the white
women to vote, denied entire black race a freedom and to
vote and Asian women to vote for several hundreds of years
requiring the 13th. 15th and 19th Amendments for the Right
to Vote and a freedom from the cruel slavery.
27

C. Fundamental Principles of the Modern Law
System are Easy to Understand bv everyone:
I am happy to mention that the Supreme Court
Associate Justice Neil Gorsuch expressed his opinion that
the fundamental principles of the man-made ten primary
constitutional amendments and seventeen secondary
constitutional amendments of the United States are easy to
understand by anyone with or without the law degrees or
law experiences.
We all know that the man-made constitutional
amendments were compiled by the founding fathers in the
Declaration of the Independent Day on July 4. 1776 for the
citizens of the United States of America.
Reiterating the fact that ten primary constitutional
amendment and the seventeen secondary constitutional
amendments are easy to understand by an average person
with or without the law degrees or the law experiences.

28

This is a true statement that has been supported and
endorsed by the erudite modern law practitioners around
the world.

D. The Writ of Mandamus in the Petition for an
Extraordinary Writ;
However, I am happy to concentrate on the petition
for the writ of prohibition or the writ of mandamus within
my “Petition for an Extraordinary Writ” for submission to
the Supreme Court of the United States. I prefer to narrow
down my selection to the Writ of Mandamus per the Rules
of the Supreme Court of the United States booklet. I will be
happy to forward a Copy of the Writ of Mandamus within
the “Petition for an Extraordinary Writ” to each and every
person; every party and every office against the relief is
sought per the honorable Supreme Court rules.

29

E. There is No Deadline for the Submission of the
Petition for an Extraordinary Writ:
There is no deadline for the submission of the
Petition for the Extraordinary Writ. I have had a nice
telephone talk in April of 2015 with the Supreme Court
Clerk Mr. Michael Duggan. He mentioned that there is no
deadline for the submission of the Petition for an
Extraordinary Writ to the honorable Supreme Court. This
is a wonderful policy for the petitioners of our great
democratic country. Also, I submitted my intention for the
Petition for an Extraordinary Writ to the Supreme Court of
the United States on April 23, 2015 by the certified letter.

F. The Sacred Duty and the Ultimate Functions of
the Supreme Court of the United States of America:
The Supreme Court of the United States of America
is the ultimate and a powerful body of the Law for citizen of
the United States of America past more than two centuries.
30

The Man-made constitutional amendments are consisting
of 10 Primary and 17 Secondary amendments totaling 27
man-made constitutional amendments for a fair and equal
justice irrespective of religion, national, cultural, racial,
educational, occupational, financial, gender and linguistic
affiliations. This is the sacred duty of the Modern Law
System in the USA, India and most of the country of our
small planet.
It is a fact that the eternal Natural Laws and
Scriptural Laws are authoritatively expounded by the
modern and the ancient Sages, Rishis and
Transcendentalists from the Indian Sub-Continent,
American Continent, the European Continent and other
places for thousands of years in our small planet since the
time immemorial.
Every Law Practitioner must study and must be
well-verse in the Scriptural Laws and Natural Laws
along with the man-made constitutional amendments of the
31

modern laws system for a fair and equal justice to citizen of
USA, India, Britain, France and Japan as well as every
democratic, communist, autocratic or dictatorial countries
of our small planet Bharat-varsha.
Every modern law practitioner must study the
Scriptural Laws, the Natural Laws and the man-made
constitutional amendments thoroughly prior to the
appointment as the Supreme Court Judge, Federal Court
Judge, State Court Judge and as the private law
practitioner in USA, India and every country in our small
planet.
We have to take a sincere note that the Modern Law
System, the Modern Science & Modern Medical Science and
the Internet Technology are disorganized, exclusivist
and fallible in nature with the essential and dire need of
the “Higher Dimensions” per the infallible and allinclusive Vedic Wisdom of the Vedic Literature: the
Supreme Science of Sanatana Dharma from India.
32

Revelation of the truth to the public is the sacred
duty and the ultimate functions of the Supreme Court,
Federal Courts, States Courts as well as the Local and
International Courts of the modern law system in USA,
India and all over this small planet. This is the sacred duty
of the law system.

G. Preview of this Historic and Unprecedented Civil
Case with violation of mv First Amendment Right:
1. I was hired as the Independent Contract Physician
at the General Motors Company in September 1997
with several Physicians. I worked sincerely for 11
years until my unfair termination on June 11, 2008
by the GM Senior Group Medical Director Dr. Stanly
Miller, DO and the Plant Medical Director Dr.
Anthony Burton.
2. The primary reasons for my unfair termination by
Dr. Miller and Dr. Burton were subtle and Concealed
33

Intention based upon my Religion. Nationality.
Color and Age as described repetitively in my Legal
Briefs to three federal Courts and 11 Page Letter to
the EEOC as well as to the Supreme Court of the
Unites Stated from 2008 to present.
3.

Dr. Stanley Miller was unable to comprehend and
digest that the Vedic Literature is far superior and
super-scientific than the Conventional Modern
Science including the Bio-medical Science,
Psychiatry and Psychology of the modern science.

4. Dr. Miller and Dr. Burton just dismissed me on June
11, 2008 as explicitly documented and presented
with this historic and unprecedented civil case in the
Concealed and Subtle manner.
5. There is no need to discriminate or terminate any
employee by the Boss or Employer for telling the
truth in USA, India or any countries. Dr. Miller at
General Motors Company or Motors Liquidation
34

Company just abused his power as the GM Senior
Medical Director as he did not like my opinion of the
Superiority of the Vedic Literature: the Supreme
Science of India. This fact has been repetitively
presented to my colleagues at the General Motors
Company, to the Medical Associations and to the
EEOC as well as to three lower federal courts at New
York and finally, to the Supreme Court from 2008 to
present.
6. Therefore, the Religion. Nationality, Color and Age
were the primary reasons for the unfair and biased
termination of Atul C. Shah, MD or me as a
physician from the General Motors Company or
Motor Liquidation Company by Dr. Stanley Miller
and Dr. Anthony Burton on June 11, 2008 with
violation of my First Amendment Right.

35

H. Failure to sought Relief at EEOC and EEOC never
dismissed my civil case with No Merit Conclusion:
1. EEOC failed to conduct a fair investigation that I
filed on December 4, 2008. This 11 Page
Complaint Letter to EEOC describes
discrimination based upon my Religion.
Nationality. Color and Age with ten million
dollars compensation.
2. Also, bankruptcy Court Judge Gerber

misconstrued and flatly concluded that EEOC
dismissed my case without carefully studying the
conclusion of the EEOC during 2012 trial.
3. EEOC cases # 471-2009-00726 in July 7, 2009

never check in the conclusion box that there was
NO MERIT with my case or dismissed the case.
4. EEOC Case # 230-90-1100 on August 23, 1990
indicating that I was dismissed as a Resident

36

Physician based upon my Hindu Religion in
Appendix S.
5. There was a mixed up and a super-imposing of
conclusion of my two different EEOC cases of
1990 and 2009 by the Bankruptcy judge Gerber
and District Court judge Oetken rendering unfair
judgments in 2012 and 2013, unfortunately.

I. Failure to sought Relief and the Prima Facie
Evidences were ignored bv the EEOC and the three
lower federal Courts:
I submitted tangible evidences and proofs of the
“Discrimination. Abuse of Power and Injustice based
upon mv Religion. Nationality, Color and Age” that were
explicitly described in eleven page EEOC letter; fifty five
page Response to Debtor’s Notice of Objection of Claim
Number 28820 dated May 4, 2012 and the Response
letter by Atul Shah for Objections to the Proposed Order
37

to expunge and disallow Case number 28820 dated
August 15, 2012 and Legal Briefs.
I am summarizing the Prima Facie proofs and evidences
with this Petition as follow:
1. The Notice of Objection Letter dated May 4, 2012 and
eleven-page EEOC letter explicitly describe that Senior
Group Medical Director Dr. Stanley Miller, DO at
General Motors Willow Run Plant was diligently
planning to dismiss or fire me (Dr. Atul C. Shah, MD)
past three years from 2005 to day of my termination on
June 11, 2008. This fact was told by the Plant Medical
Director Dr. Renato Oteyza to me (Atul C. Shah, MD).
EEOC Investigator failed to investigate this fact and the
defendant Attorneys and Judge Robert E. Gerber never
paid any attention to this prima facie evidence during
court hearing on May 15, 2012 at United States
Bankruptcy Court in New York.

38

2. The Senior Group Medical Director Dr. Miller did not
like my comments and critics of the Modern
Conventional Science including Bio-medical Science,
Psychiatry and Psychology as disorganized and
superficial science with dire needs of the Higher
Dimension per the Vedic Literature in Sanskrit
language from India. These are the proofs and evidences
leading to my termination as the Independent Contract
Physician based upon the Religion and Nationality of
me (Atul C. Shah, MD).
3. The Honorable Judge Robert E. Gerber never
investigated about the Superiority of the Vedic
Literature in Sanskrit language of India over the
Conventional Modern Science including Bio-medical
Science, Psychiatry and Psychology as explicitly
mentioned in my Brief dated May 4, 2012. The
Honorable Judge Gerber may not be aware or
knowledgeable in the Superiority of the Vedic Literature
39

in Sanskrit language. However, Judge Gerber
intentionally ignored this sublime fact. This is an
example of neglect of the court procedures for a fair and
clean judgment by the Judge Robert E. Gerber.
4.1 forwarded my scientific articles based upon the
Vedic Literature to four Presidents of American Medical
Association (AMA); three Presidents of American
Psychiatric Association (APA); Director of Disability
Determination Services (DDS) and my medical
colleagues at General Motors Company including Dr.
Stanley Miller and during medical conferences in
Michigan and other states from 2000 to present. The
primary purpose of my correspondence with my Medical
Colleagues and Modern Intellectuals is sharing the
super-scientific concepts and theories of the Vedic
Literature for the Higher Dimensions with the Modern
Science, Modern Law System and the Modern Internet
and Computer Science.
40

5.1 may humbly mention that my desire to share the
blissful and eternal Vedic Wisdom with my Medical
Colleagues and scholars was misinterpreted as imposing
my Religious Belief by Dr. Stanley Miller, Dr. Anthony
Burton at General Motors Company. Also, four
Presidents of American Medical Association, three
Presidents of American Psychiatric Association, Director
of Disability Determination Service of Michigan, the
Honorable Judge Robert E. Gerber and defendant
attorneys from the Western Culture and Religions were
unable to comprehend that the Vedic Literature from
India is the ultimate body of knowledge for the
betterment of the entire mankind. This is the primary
reason for the concealed discrimination based upon my
religion and nationality with violation of my First
Amendment Right.
6. In summary: My genuine interest and intention to
share the super-scientific concepts and knowledge from
41

the Vedic Literature in Sanskrit language from India
was simply ignored, ridiculed and thrown under the rug
by Dr. Stanley Miller and Dr. Anthony Burton; four
Presidents of AMA, three Presidents of APA, the five
Honorable federal Judges and the defendant attorneys.
7.1 submitted my article titled as “Higher Dimensions
as in Appendix M” with the Legal Brief for a review by
the Honorable Judges. This article was forwarded to
four Presidents of AMA, three Presidents of APA,
Director of DDS, the five Honorable Federal Judges, the
defendant attorneys, the Vedic Scholars in USA and
India as well to my friends from 2012 to 2014 as well as
finally to the Supreme Court of the United States in
2015.
8. My article titled as Higher Dimensions
authoritatively describes the dire need of the Higher
Dimensions with Modern Science including Bio-medical
Science, Psychiatry and Psychology; Higher Dimensions
42

with the Modern man-made Constitutional Laws and
Applicable Laws as well as the Higher Dimensions with
the Modern Internet and Computer Science per the
Vedic Wisdom. Thank Your Honor for reviewing this
superb article.
9. The simple fact that Dr. Stanley Miller & Dr.
Anthony Burton at General Motors Company; four
Presidents of AMA and three Presidents of APA;
Director of DDS, defendant attorneys and the five
Honorable Judges at three federal courts from the
Western or Eastern cultures and religious background
did not like my genuine attempt of sharing knowledge of
the Vedic Literature from Sanskrit language. However,
this denial or Concealed Intention transformed into
subtle anger and frustration with them that manifested
as the primary reason for firing me from General Motors
Company and Dismissing, Expunging or Disallowing my
Cases with the Court Systems.
43

10. Dr. Stanley Miller and Dr. Anthony Burton did not
invite me to attend the GM medical conferences few
months prior to my unfair termination on June 11, 2008.
I was regularly invited with other physicians for
attending all GM medical conferences in Michigan and
other places. During the GM medical conferences, I was
asking many sharp questions to the Presenters that
were misinterpreted as vague and unscientific religious
questions. For an example: I asked a question to a
Cardiologist that “Soul is the Original Pace maker and
the Sino Atrial Node is the Secondary Pace Maker in
heart” during one of the GM medical conference at
Marriott Hotel in Detroit. Dr. Miller did not like this
kind of question and he did not invite me to attend the
subsequent GM medical conferences during the spring of
2008 prior to my termination on June 11, 2008. This was
one of the primary reasons for my unfair dismissal as
physician by Dr. Miller.
44

11. Also, I may cite several prima facie examples of
ridiculing tactics by the defendant attorneys in this
case. The female defendant attorney Stefanie B. Greer
believes that all evidences and proofs described in my
Legal Briefs and EEOC letter is nothing but the
Laundry List Evidences submitted by Dr. Shah. Also,
another female defendant attorney Deborah Kelly
believes that Dr. Shah is throwing “Spaghetti Balls on
the wall of Kitchen” with a purpose that one spaghetti
ball may stick to the wall for the Monetary Jackpot.
12.1 may sincerely assume that the female defendant
attorneys Stefanie Greer and Deborah Kelly from
Dickstein Shapiro LLP are primarily interested in the
“Laundry Business and Kitchen Business” rather
than practice of Law.
13. The Honorable Judge Robert E. Gerber believes that
the “Abuse of Power, Discrimination and Injustice based
upon my Religion, Nationality, Color and Age” is
45

nothing but Mere Perception of Dr. Shah. However,
the Honorable Judge Robert E. Gerber himself was
unable to describe the scientific definition of the
Perception. Lack of Perception and Misperception.
14. The above-mentioned proofs are the Prima Facie
facts that are factual, tangible and applicable with the
modern judiciary system. These Prima Facie evidences
were ignored and ridiculed by the Dr. Miller at General
Motors, EEOC investigator, defendant attorneys and the
five Honorable Federal Judges with this legal case with
violation of my First Amendment Right.

J. Failure to Sought Relief and the unfair Dismissal
of mv Civil Cases bv three Lower Federal Courts in
New York City:
1. First Dismissal at the United States Bankruptcy
Court. New York in 2012: The unfair barrage of
Dismissal of this historic and unprecedented Civil Case
46

begins at the United States Bankruptcy Court in New York
by the Honorable Judge Robert E. Gerber. This verdict was
unfair per any court rules as mentioned in my Petition for
Re-hearing en banc by Appellant Atul C. Shah, MD
dated May 29, 2014.
2. Second Dismissal at United States District Court.
New York in 2013: Hon Judge J. Paul Oetken at the
United States District Court just carried out or affirmed
the Opinion of Judge Robert E. Gerber without properly
investigating this historic Civil Case as described in my
Legal Briefs Appellant Brief with Appendix for Case #
13-2647 dated Oct 7, 2014 to the Second Circuit Court.
3. Third Dismissal at the United States Court of
Appeals for the Second Circuit at New York in 2014:
Panel of Three Judges that include:
JOHN M. WALKER, JR.
ROSEMARY S. POOLER
RICHARD C. WESLEY
47

The Panel of Three Judges at Second Circuit Court in
New York also rendered their unfair, politically, religiously
and culturally motivated biased Summary Order on May
19, 2014 disrespecting the court rules and regulations.
They just AFFIRMED the faulty and biased Opinion by two
Federal Judges J. Paul Oetken and Robert Gerber without
any second thoughts or considerations. Please review my
Legal Brief Petition for Rehearing en banc dated July 10.
2014 to Chief Judge Robert A. Katzmann at the United
States Court of Appeals for the Second Circuit in New York.
What was the CRIME Committed by Dr. Atul C. Shah, MD
resulting into the Barrage of Dismissals of my Historic
and Unprecedented Civil Case?
The greatest Crime or Fault committed by Dr. Atul C. Shah,
MD is telling the Truth to the five Federal Court Judges at
the Three Federal Courts as mentioned in the following
paragraphs.
I.

Federal Judge Robert E. Gerber at United States
48

Bankruptcy Court simply did not like or digest the
Truth that the Vedic Literature of Sanatana Pharma
from India is far Superior than the Modern Science.
This point was documented in my Legal Brief and in
the Court Transcript dated May 4, 2012. Honorable
Judge Robert E. Gerber simply become angry and
dismissed my case that is a reality. In other words,
telling the Truth Became a Crime per the opinion of
the federal judge Robert E. Gerber.
II.

Another Federal Judge J. Paul Oetken at the United
States District Court also simply did not like or
digest my description of the Modern Man-made
Constitutional Laws and Applicable Laws are
Defective. Limited and Disorganized as mentioned in
my Appeal Brief and Reply Brief dated Feb 2013 and
March 2013 as well as in my “Higher Dimensions”
article. He read and loved my articles such as
Higher Dimensions and Legal Briefs but he just
49

sided with the faulty opinion of Bankruptcy Judge
Robert E. Gerber. It appears that the Federal Court
Judges are unable to accept the Truth especially
from a Pro Se Litigant from India with Hinduism
background like me.
III.

The Summary Order dated May 19, 2014 by the
Panel of Three Judges at United States Court of
Appeals for the Second Circuit was unbelievably
biased, politically, religiously and culturally
motivated without a doubt per my humble opinion.
My Appellant Brief with Appendix for Case # 132647 dated 10/7/2013 and Reply Brief dated
1/17/2014 forwarded to the Panel of Three Judges
were describing the defective, disorganized and
limited nature of the Modern Man-made
Constitutional Laws and Applicable Laws. I
mentioned that the eternal and blissful Vedic
Wisdom of Vedic Literature: the Supreme Science of
50

Sanatana Dharma can help to remove these
deficiencies of the Modern Law System. The panel of
Judges John M. Walker, Jr; Rosemary S. Pooler and
Richard C. Wesley never appreciated this sublime
truth. Simply, they abused the power as the Federal
Judges by dismissing my case with the great Anger
and Disbelief.
IV.

What was the CRIME committed by Dr. Atul C.
Shah, MD? The Cardinal Crime or Cardinal Sins
committed by Dr. Atul C. Shah, MD was Telling the
Truth that Modern Man-made Constitutional Laws
and Applicable Laws of Modern Judiciary System is
Defective. Disorganized and Limited in nature. Five
federal Judges were simply STUNNED,
SPEECHLESS and in State of ABSOLUTE DENIAL
of this SUBLIME TRUTH dismissing my case
THREE TIMES. Telling the Truth was the greatest
CRIME committed by Dr. Shah. Please believe me.
51

V.

The primary purpose of this Historic and
Unprecedented Civil Case against the General
Motors Company is the Complete Transformation
and Higher Dimensions of the Modern Law System,
Modern Science & Medical Science and the Internet
& Computer Science per the eternal and blissful
Vedic Wisdom of the Vedic Literature: the Supreme
Science.

VI.

I am sincerely praying that the Supreme Court of the
United States to accept this historic and
unprecedented civil case - Petition for an
Extraordinary Writ. However, I am happy to
mention that the primary purpose of this civil case,
Complete Transformation of the Judiciary
System, is already achieved.

VII.

Gulf of Disparity of Judgments for the Elite
Americans and the Poor Americans: There is a
distinct demarcation between the Judgments
52

rendered by the Supreme Court and Federal Court
Judges for the Elite Americans and the Poor
Americans in America and other countries past
several centuries as documented by many Law
Practitioners. This is a reality. Rich and Famous
celebrities with great influences are treated
differently than the poor and helpless population in
this globe. In other words, Wealth and Fame changes
the Modern Laws with no need of Impartiality and
Neutrality.
VIII. I greatly admire the American Spirit: the
Relentless Pursuit to realize the truth - the
Absolute Truth. Also, the Freedom of Speech.
Freedom of Religion and Freedom of the Expression
are the greatest Hallmarks of the American
Judiciary System, although defectively composed by
the Founding Fathers with lack of the blissful
Vedic Wisdom. The Vedic Wisdom is the Panacea
53

and the Solution for the Transformation and
Higher Dimensions with the Modern Law System,
Modern Science and Modern Internet & Computer
System right now.
EX.

America and India have to perform the Dirty
Job of Eradication of the Global Pollution:
Atheism, Immorality and Terrorism are the Dirtiest
Global Pollution abundantly present in our
Modern World right now. The United States of
America with her Mighty Military Power and the
Mighty Wisdom of Blissful Spiritual Science of India
will efficiently Eradicate this Global Pollution right
now. Everyone should help for the Eradication of this
kind of the Global Pollution with the Global Unity in
Diversity. Ignorance is the greatest Global Pollution
prevalent in this small globe with need of the
complete Eradication with the help of the Vedic
Wisdom for all and bv all.
54

Sanskrit Aphorism “Satvam Eva Javate
reveals that Only the Truth Prevails”: I have
a great privilege to be a humble and Law-abiding
Citizen of two greatest Democratic Countries India and USA. Telling the Truth should be
appreciated as the Virtue rather than the CrimeTelling Truth is not a Crime. The Federal
Courts and Supreme Court are the sacred places
for the Revelation of the Truth rather than the
suppression of the Truth. This is the greatest
point that I am making with my articles and the
Legal Briefs to the Modern Law System, Modern
Science and Modern Scholars past more than a
decade.
X. Only Truth Prevails or “Satvam Eva Javate” is
the eternal Vedic Wisdom and Vedic Aphorism.
This is a reality.

55

K. Description of Perpetual and un-ending fight
with merciless, ruthless and the crudest Modern
Law System by Atul C. Shah. MD.
This civil case is the historic and unprecedented case
with the modern law system. I am happy to describe
several civil, administrative, Forfeiture, Bureau of the
Professional Licensing and criminal cases confronted by
this humble self Atul C. Shah, MD with a great
relevance with this civil case.
Herewith in this section K. I am happy to describe
the DEA raid, DEA investigation, DEA Complaint, Civil
case, monetary forfeitures, administrative complaints,
Bureau of Professional Licensing Board Disciplinary
Committee action, and role of the Assistant Attorney
General of Michigan as well as a threat with intention of
Criminal Charges with help of the Grand Jury Trial.
The primary purpose of the description of the abovementioned chain of legal actions is to reveal how our
56

modern law system that can become so merciless.
ruthless and cruelest to the citizen of our great country
in name of the law and justice. Also, there is a gentle
side of the Modern Law System.

Following is the Description of the perpetual Chain of
Events or Chain of legal actions that is relevant with
this civil case:
1. DEA Raid on 8/18/2015 at a Pain Clinic in
Southfield, Michigan.
2. Two DEA agents demanded to surrender the DEA
License from 4 to 6 physicians.
3. Two Physicians including me surrendered the DEA
license voluntarily on 8/18/2015. This was a great
deception by two DEA Agents saying surrendering
DEA license means unable to prescribe controlled
substances but you continue to prescribe noncontrolled substances and practice medicine. Two DEA
57

agents provided me a hand-written letter but provided
a standard PEA 104 letter to another physician on
same time and same day of DEA raid.
4. Forfeiture of approximately $ 136,000.00 (One
hundred and thirty-six thousand dollars) of my hardearned money by the court order on 8/18/2015 and
beginning of the civil case.
5. DEA Allegations and DEA Investigation on May 13,
2016 by the DEA Investigator Vaughn Hafner for the
fake 950 plus fraudulent prescriptions of the controlled
substances. Please take a note that 16 fraudulent
prescriptions were written when I was fighting for my
life on Operating table and in the Intensive Care Unit
in June 2014.
6. Beginning of the Administrative Complaints by the
Bureau of Professional Licensing and the Drug
Monitoring Section on 9/26/2016.

58

7. Four rounds of the Settlement response forwarded
to Sean M. Siebigteroth of Drug Monitoring Sections
from 9/26/2016 to 12/28/2016. Copies of all four
Settlement Responses were forwarded to the
Presidents of American Medical Association, Michigan
State Medical Society and Wayne County Medical
Society as well as to my attorney Anjali Prasad.
8. This Administrative case was transferred to the
Attorney General Office in Michigan on 12/28/2016.
9. Pre-hearing Tele-Conference with the
Administrative Law Judge Peter L. Plummer and
Assistant Attorney General Andrew J. Hudson on
3/14/2017.
10. Permanent surrendering of DEA License to
Assistant Attorney General Andrew J. Hudson on
3/24/2017.
11. Dismissal of the Administrative Complaint case
without prejudice by the Administrative Law Judge
59

Peter L. Plummer. I thought that dismissal of my case
without prejudice is a good verdict. However, I realized
that it was not a good verdict.
12.1 requested to dismiss mv case with Prejudice to
the Administrative Law Judge Peter L. Plummer and
to the Assistant Attorney Andrew J. Hudson
immediately on 4/4/2017 with no response from both of
them so far. This is a deep silence until today. I am
happy to mention that the Administrative Law Judge
Peter L. Plummer and Assistant Attorney General
Andrew J. Hudson were very supportive and helpful to
me. This was the gentle and kind face of the Modern
Law System per my understanding. However, AAG
Andrew J. Hudson lost his job of Assistant Attorney
General as predicted during the Tele-conference by the
Administrative Law Judge Peter L. Plummer,
unfortunately.

60

13. Subject Statement and Dispute Information letter
to National Practitioner Data Bank (NPDB) on
6/30/2017. My dispute letter indicates that
surrendering of DEA License is not a violation of the
Public Health Codes and the $ 500.00 was a reduced
administrative fee and not the fine or penalty.
14. Received a letter from two FBI agents on 2/20/2019
with intent for a Grand Jury by Trial Attorney
Thomas J. Tynan and the intent for the Criminal
investigation by the US Attorney Office at the Eastern
District of Michigan.
15. The above-mentioned chain of the events indicate
that how the Modern Law System can become so
merciless, ruthless and the cruelest system that can
destroy the reputation, can destroy the cordial
relationship within a family, destroy the job
opportunities and inflict horrible mental stress on the
citizen of our great country including me and on
61

anyone and anytime. The defective and merciless law
system has the power to interchange or transform a
civil case to administrative complaint; to
administrative investigation to criminal investigation
and criminal case; forfeiture of money and property;
with a prison penalty for decades to centuries and even
death penalty or capital punishment to anyone and
anytime. Everything is in name of Law and Justice.
16. I am happy to mention that the Grand Jury Trial
has not been started and hope that will not be started
in the future in my present life. I wrote to my Attorney
Anjali Prasad that “I will be happy see them in mv
next or 10th incarnation as the Chief Justice of the
Supreme Court of the United States and shredding
their evidences and arguments”. My attorney Anjali
Prasad, a former federal prosecutor in the criminal law
system agreed.

62

17. The Drug Enforcement Administration or DEA
was established by President Richard Nixon on July
1973. The primary purpose of the DEA as the single
federal agency is to enforce the federal drug laws and
to consolidate the drug control activities for the
prevention of the Narcotic Addiction and the Narcotic
Epidemics in the USA and other countries.
18.1 am a practicing physician and psychiatrist for 40
plus years with extensive experiences in the Modern
Medical Science as psychiatrist and as the Pain
Specialist. I forwarded a superb 6-page letter to
Obama-Biden Administration, to Presidents of Medical
Association (AMA, MSMS and WCMS) and to
Chairman of University of Michigan as well as to my
attorneys Anjali Prasad and Ronald Chapman II in
Michigan. I am attaching the six-page letter with 20
power points with this civil case in the Appendix P.
This article has description of the “Prevention of the
63

Narcotic Epidemics” written in the scientific manner
for the Higher Dimensions with the Addiction
Psychiatry and with the Modern Law System.
19. The Higher Dimensions with the Criminal Justice
System is extremely essential in our man-made
Constitutional Amendments for the fair and equal
justice for every citizen.
20. This is a description of the perpetual and endless
fights with the merciless, ruthless and the cruelest
Modern Law System by this humble self Atul C. Shah,
MD. There was also a kind and gentle side of the
Modern Law System. I pray to the honorable Supreme
Court of the United States to look into these legal
topics for a fair and equal justice.
L. Failure to sought Relief and Lack of Interest bv
Presidents of AMA & APA and CEOs of the Modern
Internet Companies:

64

Following are the Examples of Passive Inactions and
Lack of Interest manifesting as the Covert or Concealed
Discrimination:
I am describing the prima facie examples of the
“Passive Inaction or Lack of Interactions manifesting as
the Covert and Concealed Discrimination” in this section.
L I submitted my scientific articles and superb concepts
of the Vedic Literature from India to four Presidents of
American Medical Association (AMA), three Presidents of
American Psychiatric Association and Director of
Disability Determination Services as well as to the Five
Honorable Judges (Robert E. Gerber, J. Paul Oetken,
John M. Walker, Jr; Rosemary S. Pooler and Richard C.
Wesley) and the defendant attorneys as well as to Dr.
Miller at GM and to many scholars and friends in USA
and India from 2008 to present for the purpose of the
Higher Dimensions with the Modern Science, the Modern
Law System and the Internet Technology.
65

2.1 forwarded my scientific articles to the wealthy and
influential Chairmen and Chief Executive Officers of
Microsoft Mr. Bill Gates & Satya Nadella and other giant
Internet and Computer Companies in USA and India for
the need of the “Higher Dimensions with the Internet and
Computer Science Technology per the Vedic Wisdom”. All
emails and my email articles were scrutinized, relayed
and stored with the giant email Internet companies such
as Microsoft, Yahoo, Google and AOL etc. The chairmen
and research directors of giant Internet companies have
easy access and able to use their “Spy Spectrum” for
retrieving and reviewing all content of the emails of every
originator including myself.
3. Presidents of AMA and APA, Chairmen and CEOS of
Microsoft and Intel, the Honorable Judges of the
influential organizations are intentionally ignoring and
ridiculing the super-scientific concepts of the Vedic
Literature from India that is providing the “Higher
66

Dimensions” with Modern Science, Modern Law System
and the Internet and Computer Science as explicitly
described in my forty plus articles past more than a
decade.
4. Per my humble observation, the above-mentioned
executive heads are incapable of providing the Higher
Dimensions with the Modern Science including Bio­
medical Science, Psychiatry and Psychology; unable to
provide Higher Dimensions with the Modern
Constitutional Laws and Applicable Laws and finally,
with the Internet and Computer Science Technology with
their conventional knowledge and the conventional
approaches.
5. Also, the above-mentioned influential and wealthy
Executive Heads of different organizations are extremely
reluctant and hesitant to apply and implement the Superscientific and blissful knowledge and concepts of the Vedic
Literature from India for the Higher Dimensions as
67

beautifully described in my articles and by many Vedic
Scholars in USA and in India.
6. The above-mentioned observations are the pertinent
examples of the “Passive Inactions manifesting as the
Covert and Concealed Discrimination” based upon my
Religion, Nationality and Color in this case. This is the
best example of “Do Nothing and Sav Nothing Policy
Implemented bv Presidents and Chairmen of different
Organizations” as described in my Legal Briefs.
7. This is my genuine perception and opinion. Hope that
Your Honors will be happy to agree with this humble
perception and opinion.

M. Failure to sought Relief and failure to understand
bv the Modern Educational System that the Vedic
Wisdom of India is the Real Solution for the Modern
Maze and Modern Problems:

68

The authoritative and blissful Vedic Wisdom of Vedic
Literature: the Supreme Science of Sanatana Dharma from
India is the Real and Final Solution for the Modern Maze
created by the modern mankind with the lack of the Vedic
Wisdom right now as beautifully described in my article
“Higher Dimensions” and the Legal Briefs presented to the
Honorable Judges and the Honorable Courts.
Modern Scientists, Physicists, Physicians and
Psychiatrists as well Psychologists and Sociologists are
unable to describe the fundamental principles of the
Perception. Lack of Perceptions and Misperception: Science
of Rasa or Science of Relationships and Exchange of the Six
Opulence and many superb topics of the Vedic Wisdom.
The Modern Law Practitioners have very hard time
to differentiate the subtle demarcation between the Civil
Infractions and the Criminal Infractions with the help of
the Modern man-made Constitutional Laws and the
Applicable Laws.
69

The modern Internet and Computer Science
Technology Innovator are unable to describe the
Fundamental Principles of the modern Internet and
Computer Science scientifically right now. Mr. Bill Gates &
Satya Nadella and Presidents of AMA, APA remains totally
silent and prefers not to comment at all about this issue is
the pertinent example of the Modern Maze created right
now with our modern society and culture.
The Vedic Wisdom is the Real Solution for this
Modern Maze. This is the great point and remedy I am
presenting with this Brief and other legal brief submitted
earlier with this historic and unprecedented Civil Case.
This historic and unprecedented Civil Case has the
National and International Significance for the
Betterment of the Modern Mankind.
I am completing this historic and unprecedented
Civil Case during the 151st birth year of Mahatma
Gandhi: the Apostle of Ahimsa or Non-violence that has
70

been declared by the General Assembly of the United
Nations as the Day of Ahimsa or Non-violence. Let all of
us pray and follow in the foot-steps of Mahatma Gandhi at
present and forever.
I have mentioned several times in my legal briefs
and articles that monetary gain is never the primary goal of
this historic and unprecedented case to the lower courts
and to the US Supreme Court.
However, I have spent innumerable days, months
and years for presentation of my cases single-handedly with
a great determination with hope for a fair and equal
justice despite multiple hurdles and obstacles.

N. Summary and Examples of the Failure to sought
Relief and failure to understand mv view of the
Higher Dimensions topic bv the Modern Educational
System:

71

I am submitting the examples of Failure to Sought
Relief and essential need of filing the petition seeking a
writ of mandamus in the “Petition for an Extraordinary
Writ. These are the exceptional circumstances warrant the
exercise of the US Supreme Court’s discretionary power.
1. Failure to sought Relief from the General Motors
Corporation and the EEOC at Detroit, Michigan.
2. Failure to sought Relief from the United States
Bankruptcy Court in New York.
3. Failure to sought Relief from the United States
District Court in New York.
4. Failure to sought Relief from the United States
Court of Appeals for the Second Circuit at New York.
5. Failure to sought Relief and lack of action by the
Presidents of American Medical Association and
Presidents of the American Psychiatric Association;
Disability Determination Services, Drug
Enforcement Agency and the Bureau of Professional
72

Licensing about the essential need of the Higher
Dimensions with the Modern Biomedical Science
including Psychiatry and Psychology.
6. Failure to sought Relief and denial by the CEOs
and Chairmen of the wealthy and powerful Internet
Technology Companies such as Microsoft, Google,
Yahoo, Apple and AOL and others. I requested Mr.
Bill Gates and Mr. Satya Nadella of Microsoft
Company for the revelation of the “Description of the
Fundamental Principles of the Internet Technology”
to the public including me and to the US Supreme
Court of with no response or reply so far.
7. I am praying for the great understanding and dire
need of the Higher Dimensions with the Man-made
Modern Law System, Modern Science & Modern
Medical Science and the Modern Internet Technology
per the Vedic Wisdom of India. The Higher
Dimensions will culminate into the Global
73

Prosperity, Global Peace and Global Enlightenments
of the Modern mankind in USA, India and all over
this small globe. This is my humble prayer.
8.1 am sincerely requesting the honorable Supreme
Court of the United States to keep my 40 plus
scientific articles and 10 plus legal briefs in the
Archive of the Supreme Court. I sincerely believe
that my 40 plus articles and 10 plus legal briefs are
helpful for purpose of the research and Higher
Dimensions.

O. Description of the “Higher Dimension” with the
Modern Law System. Modern Science & Medical
Science and the Modern Internet Technology per
the Vedic Wisdom of India.
Herewith in this section Q. I am describing the
pertinent points of the Higher Dimensions with the
Modern Educational System per the eternal and blissful
74

Vedic Wisdom of India as described in my articles and in
the Legal Briefs.
L Higher Dimensions with the Modern Man-made Law
System of the United States of America.
■ There are ten primary Constitutional Amendments.
■ There are seventeen secondary or supplemental
Constitutional Amendments totaling 27 Constitutional
Amendments.
■ There is essential need of the 28th constitutional
amendment per the Vedic Wisdom of India ('Appendix
M) that will be providing the Higher Dimensions and
all-inclusiveness to the Modern American Law System.
■ This 28th Constitutional Amendment will be the
final constitutional amendment. No need of the extra
Constitutional Amendments anytime.
■

This 28th Constitutional Amendment includes:
1. Austerity or Tapas

2. Cleanliness or Sauca

3. Mercy or Dava

4. Truthfulness or Satva
75

■ The four great pillars of Austerity, Cleanliness,
Mercy and Truthfulness of the Vedic Wisdom
(Appendix M) will remove the deficiencies, providing
stability and all-inclusiveness to the Modern Law
System. These four pillars will help for a fair and
equal justice by the honorable courts and judges to the
citizens of USA and India as well as other countries.
II. Higher Dimensions with the Modern Science and
Medical Science in USA, India and other countries.
■ My forty plus articles and 10 plus legal briefs are
describing superbly the fundamental principles of the
Modern Educational System for the Higher
Dimensions at present and in the future.
III. Higher Dimensions with the Modern Internet
Technology Companies in USA, India and other
countries.
■ The prominent world leaders Prime Minister
Narendra Modi of India, President Donald Trump of
76

USA, President Vladimir Putin of Russia and
President/Prime Minister of China, Japan, Britain,
Israel and other countries must encourage and
challenge the geniuses and wizards of the Modern
Internet Technology for revelation of the “Description
of Fundamental Principles of the Modern Internet
Technology” (Appendix R). The contestants should
submit their Thesis and articles to the “World
Scientific Committee” established by the honorable
Supreme Court of the USA, India, Russia and China
and other countries. I will be happy to participate in
this contest without reservations and hesitation.

P. Description of the Whistle Blowing Activities bv
this humble self Atul C. Shah. MD:
I am a humble and a law-abiding citizen of the
two greatest democratic countries of our globe — the
USA and India.
77

I am blowing the whistle for the essential and
dire need of the Higher Dimensions within the Modern
Law System, Modern Science & Medical Science and the
Internet Technology as a Resident Physician, as a
practicing physician and as a member of the medical
associations (AMA, MSMS and WCMS) and as the Pro
Se Litigant past thirty plus years in the state of
Michigan from 1982 to present. This is a humble
contribution for the wellness of the mankind by this
humble self.

Q. The Final Opportunity and Final Judgment:
I am thankful for accepting my Petition for a Writ of
Certiorari, Supplemental Brief and Rehearing in the
Good Faith Brief by the US Supreme Court during 2014
and 2015. Now, I hope for the acceptance of the “Petition
for an Extraordinary Writ” by the honorable Supreme
Court of the United States in 2020.
78

It is a fact that approximately One Percent of Cases
are accepted and Ninety Nine Percent of the cases are
rejected by the honorable Supreme Court of the United
States.
I am praying for the careful review of this historic
and unprecedented civil case that is providing the
Higher Dimensions to the Modern Law System, Modern
Science & Medical Science and to the Modern Internet
Technology. This is a priceless and incalculable
contribution for the wellness of the modern mankind in
our small planet.
I am sincerely praying with a hope for a fair and
equal justice for this historic and unprecedented civil
case with the second thought and consideration by the
honorable Chief Justice and nine honorable Associate
Justices of the Supreme Court of the United States of
America.

79

R. Fifth Amendment - Right to remain Silent:
The Fifth Amendment provides a right to stay silent.
However, when the federal judges, Presidents of the
Medical Organizations and CEOs of the wealthy
Internet companies remain intentionally silent that
indicating their lack of knowledge and ignorance. Better
to say “I do not know: I do not care and you are
excluded”. This is a reality.

S. Amicable Resolution for this historic and
Unprecedented Civil Case:
I may humbly and bottom of my heart suggest
following amicable resolution of this historic and
unprecedented civil case to the honorable Supreme
Court of the United States of America.
1.1 will be happy to accept One Dollar Reward from the
honorable Supreme Court without hesitation or
reservation. I will be happy to keep this One Dollar
80

Reward in the Gold-plated or Platinum-plated frame as
the souvenir for my family and friends.
2. Also, I will not be unhappy to accept ten plus million
dollars reward by the honorable Supreme Court of the
United States without hesitation and reservation.
3.1 will be happy to continue to offer my services as the
Research Director for next five plus years at the
Research Facility located in the state of Michigan
financed by the wealthy Internet companies such as
Microsoft, Google, Amazon or Yahoo and other
companies. This is a Peanut-nut amount for them.
4. Primary function for offering my service as Research
Director is continue to providing the “Higher
Dimensions” with the Modern Law System, Modern
Science & Medical Science and the Internet Technology
per the blissful and eternal Vedic Wisdom of India as
repetitively mentioned in this petition, in my legal briefs
and in my articles past ten plus years.
81

5. The resultant effect of the Higher Dimensions within
the Modern Educational System will culminate into the
Global Prosperity, Global Peace and Global
Enlightenment as well as End of the Atheism.
Immorality and Terrorism with the Global Unity in
Diversity in our small planet.
6. This is a best approach and my sincere prayer for the
amicable resolution of this historic and
unprecedented civil case with a fair and equal justice by
the honorable Supreme Court of the United States of
America.

82

CONCLUSION
I am praying and respectfully requesting the
honorable Supreme Court of the United States of America
for granting the Petition for an Extraordinary Writ for a
fair and equal justice.

Respectfully submitted,

2884 Manorwood Drive
Troy, Michigan

Pro Se Petitioner and Litigant
October 2, 2020

83

